No. 19-511
IN THE

Supreme Court of the United States
FACEBOOK, INC.,
Petitioner,
v.
NOAH DUGUID, ET AL.
On Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF SERVICE
I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3, 29.5, and 37.5, that I have, this 11th day of September,
2020, served three copies of Brief of Quicken Loans, LLC as Amicus Curiae
Supporting Reversal upon each party separately represented in this proceeding by
causing them to be deposited with the United States Postal Service, with first-class
postage prepaid, addressed to counsel of record at the address listed below:
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania, NW
Washington, D.C. 20004
Paul.clement@kirkland.com
Counsel of Record for Petitioner
Sergei Lemberg
Lemberg Law, LLC
43 Danbury Road
Wilton, CT 06897
slemberg@lemberglaw.com
Counsel of Record for Noah Duguid

Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, D.C. 20530
SupremeCtBriefs@USDOJ.gov
Counsel of Record for the United States of America
I further certify that, pursuant to Supreme Court Rule 29.3, I have caused
electronic copies of the brief to be served on the parties at the email addresses listed
above.
I further certify that all persons required to be served have been served.

____________________________
Andrew Kim
Goodwin Procter LLP
1900 N Street, N.W.
Washington, D.C. 20036
AndrewKim@goodwinlaw.com
(202) 346-4000
September 11, 2020

Counsel for Amicus Curiae

